ALFRED R. FABRICANT
direct dial: 212.209.4855
fax: 212.938.2983
AFabricant@brownrudnick.com

March 27, 2020

VIA E-FILE

Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543-0001
RE:

In re TCT Mobile International Limited, No. 19-1092

Dear Clerk of the Court:
I do not intend to file a response to the petition for Writ of Mandamus or, in the alternative, Writ of
Certiorari, filed in the above-referenced case.
Please enter my appearance as Counsel of Record for respondent Semcon IP Inc.
I am a member of the Bar of the Supreme Court of the United States.
Sincerely,
BROWN RUDNICK LLP

Alfred R. Fabricant
cc: All counsel of record for TCT Mobile International Limited

